No. 20-484
IN THE
SUPREME COURT OF THE UNITED STATES

PATRICIA WOODS, PETITIONER

VS.
ROBERT STORMS, et al,
RESPONDENTS.

PROOF OF SERVICE

I, GAMAL RICHARDSON, swear and declare that on this date, December 8, 2020, as
required by the Supreme Court Rule 29,1 have served and enclosed a PETITIONER’S
PETITION FOR RECONSIDERATION OF WRIT OF CERTIORARI, AND
APPENDIX 1 on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

l

PROOF OF SERVICE
PAGE 2

PATRICIA WOODS

PETITION FOR A WRIT OF CERTIORARI—U.S.SUPREME COURT
J. Felix De La Torre,
General Counsel
Public Employment Relations Board
1031-18th Street
Sacramento, California 95811
XAVIER BECERRA,
Attorney General of California
KRISTIN M. DAILY, Supervising Deputy Attorney General
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, California 94244-2550
I declare under penalty of perjury that the foregoing is true and correct.

Executed on DECEMBER 8, 2020

l

l

